TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Additional Actions Are Needed to Help
                   Ensure Taxpayer Compliance With the
                Foreign Investment in Real Property Tax Act



                                      September 3, 2014

                             Reference Number: 2014-30-051




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information
2 = Risk Circumvention of Agency Regulation or Statute


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


ADDITIONAL ACTIONS ARE NEEDED                         foreign seller real estate transactions comply
TO HELP ENSURE TAXPAYER                               with the FIRPTA.
COMPLIANCE WITH THE FOREIGN                           TIGTA’s review of Form 1099-S, Proceeds From
INVESTMENT IN REAL PROPERTY                           Real Estate Transactions, real estate transaction
TAX ACT                                               data reported to the IRS revealed that there may
                                                      be noncompliance with the FIRPTA filing
                                                      requirements. TIGTA also found that the IRS
Highlights                                            did not always ensure compliance with FIRPTA
                                                      filing requirements when a request for reduced
Final Report issued on                                withholding was filed and the FIRPTA
September 3, 2014                                     withholding tax was still owed.
                                                      In addition, TIGTA also identified various internal
Highlights of Reference Number: 2014-30-051           control weaknesses in the processing of
to the Internal Revenue Service Commissioners         1) FIRPTA withholding payments and 2) FIRPTA
for the Large Business and International Division     withholding credits claimed by foreign sellers on
and the Wage and Investment Division.                 their income tax returns. These internal control
IMPACT ON TAXPAYERS                                   weaknesses resulted in the issuance of
                                                      erroneous refunds and balance due notices.
Congress passed the Foreign Investment in
Real Property Tax Act of 1980 (FIRPTA) to             WHAT TIGTA RECOMMENDED
provide Federal tax rules for the sale of U.S. real   TIGTA made recommendations that will help
property by foreign persons. The Deficit              improve compliance with the FIRPTA, including
Reduction Act of 1984 imposed a withholding           revising the Form 1099-S to more easily identify
tax on the anticipated taxes due on any capital       real estate transactions subject to this law and
gain from the sale of a U.S. real property interest   considering legislative/regulation changes to
by a foreign seller. This is generally the only       reduce barriers to effective administration of the
method that the IRS has to ensure the collection      FIRPTA. TIGTA also made several
of any taxes on the capital gains resulting from      recommendations to improve controls over the
these sales. Once the foreign seller and the          processing of FIRPTA transactions.
sale proceeds leave the United States, it is
difficult for the IRS to collect any delinquent       The IRS agreed with four recommendations and
taxes due. When this happens, the foreign             indicated it had already addressed a fifth
sellers may be able to evade payment of taxes.        recommendation, which TIGTA was unable to
                                                      verify. It will apprise the Department of the
WHY TIGTA DID THE AUDIT                               Treasury of the recommendation pertaining to
This audit was initiated as part of our Fiscal        overcoming barriers to ensuring taxpayers
Year 2014 Annual Audit Plan and addresses the         comply with the FIRPTA. It did not agree to one
major management challenges of Globalization          recommendation intended to help it validate
and Fraudulent Claims and Improper Payments.          affidavits of non-foreign status. TIGTA
The overall objective of this audit was to            continues to believe that the IRS should follow
determine the effectiveness of the IRS’s efforts      through on this recommendation.
in ensuring taxpayer compliance related to the
disposition of foreign investments in U.S. real
property.
WHAT TIGTA FOUND
There are some barriers for the IRS in ensuring
the tax compliance of real estate sales
transactions subject to the FIRPTA. As such,
the IRS cannot provide assurance that all
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 3, 2014


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report - Additional Actions Are Needed to Help Ensure
                             Taxpayer Compliance With the Foreign Investment in Real Property
                             Tax Act (Audit # 201230022)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to ensure taxpayer compliance related to the disposition of
 foreign investments in U.S. real property. This audit is included in our Fiscal Year 2014 Annual
 Audit Plan and addresses the major management challenges of Globalization and Fraudulent
 Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).
                       Additional Actions Are Needed to Help Ensure Taxpayer
                    Compliance With the Foreign Investment in Real Property Tax Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          There Are Some Barriers to Effective Enforcement of the
          Foreign Investment in Real Property Tax Act .............................................. Page 4
                    Recommendations 1 through 3:......................................... Page 10

          Weaknesses in Processing Controls Led to the Issuance
          of Erroneous Refunds and Balance Due Notices .......................................... Page 11
                    Recommendations 4 through 6:......................................... Page 18

          The Internal Revenue Service Did Not Always Ensure Buyer
          Filing and Paying Compliance After a Withholding Determination
          Was Made on Form 8288-B .......................................................................... Page 19
                    Recommendation 7:........................................................ Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 26
          Appendix III – Report Distribution List ....................................................... Page 27
          Appendix IV – Outcome Measures............................................................... Page 28
          Appendix V – Form 8288 and Foreign Investment in Real Property
          Tax Act Withholding Statistics ..................................................................... Page 32
          Appendix VI – Form 8288-B Statistics ........................................................ Page 33
          Appendix VII – Income Tax Returns Filed by Foreign Sellers and
          Foreign Investment in Real Property Tax Act Credits Claimed ................... Page 34
          Appendix VIII – Glossary of Terms ............................................................. Page 35
          Appendix IX – Management’s Response to the Draft Report ...................... Page 39
            Additional Actions Are Needed to Help Ensure Taxpayer
         Compliance With the Foreign Investment in Real Property Tax Act




                          Abbreviations

FIRPTA              Foreign Investment in Real Property Tax Act of 1980
IDRS                Integrated Data Retrieval System
I.R.C.              Internal Revenue Code
IRS                 Internal Revenue Service
ITIN                Individual Taxpayer Identification Number
LB&I                Large Business and International
TIGTA               Treasury Inspector General for Tax Administration
TIN                 Taxpayer Identification Number
W&I                 Wage and Investment
                     Additional Actions Are Needed to Help Ensure Taxpayer
                  Compliance With the Foreign Investment in Real Property Tax Act




                                              Background

Prior to 1980, sales of real property in the United States by
a foreign person generally had no tax consequences unless          FIRPTA imposed taxes on gains
the ownership of the property constituted a trade or               from the sale of U.S. real estate
business, or the property was used in a trade or business.               by foreign persons.
Congress passed the Foreign Investment in Real Property
Tax Act of 19801 (FIRPTA), which added Internal Revenue Code2 (I.R.C.) Section (§) 897, to
provide Federal tax rules for the sale of U.S. real property by a foreign person.3 This law
extended the U.S. capital gains tax to sales of U.S. real property held by a foreign person either
directly as a passive investment or through a domestic corporation.
Congress subsequently passed the Deficit Reduction Act of 1984,4 which added I.R.C. § 1445, to
require a withholding tax on the sale of U.S. real property by foreign sellers. The purpose was to
impose a withholding tax on the anticipated taxes due on any capital gain from the sale of a U.S.
real property interest by a foreign seller. This is generally the only way the Internal Revenue
Service (IRS) has to ensure the collection of these taxes. Once the foreign seller and the sale
proceeds leave the United States, it is often difficult for the IRS to enforce collection of any
delinquent taxes due. When this happens, the foreign sellers may be able to evade payment of
taxes.
The IRS is responsible for enforcing these laws and ensuring that the disposition of real property
by foreign sellers is properly reported and the withholding is paid. However, the IRS must rely
on self-reporting and voluntary compliance in its enforcement efforts. As specified in the law,
the buyer (either domestic or foreign) of a U.S. real property interest from a foreign seller is
responsible for determining if the FIRPTA applies, filing the required forms, withholding a
portion of the sales proceeds, and remitting the withheld amount to the IRS. However, buyers
are dependent on the foreign sellers disclosing that they are subject to the FIRPTA. If the
foreign seller is not truthful about being subject to the FIRPTA, the buyer could still be held
liable for the FIRPTA tax if it is not withheld. Although a third party, such as a settlement agent5


1
  Enacted as Subtitle C of Title XI (the Revenue Adjustments Act of 1980) of the Omnibus Reconciliation Act of
1980, Pub. L. No. 96-499, 94 Stat. 2599, 2682 (Dec. 5, 1980).
2
  See Appendix VIII for a glossary of terms.
3
  For purposes of the FIRPTA, a foreign person is defined as a nonresident alien individual (someone who is not a
U.S. citizen and either does not have a green card or does not meet the substantial presence test), a foreign
corporation, a foreign partnership, a foreign trust, or a foreign estate. For the purposes of this report, the term
“foreign seller” is used to encompass all those subject to the law.
4
  Tax Reform Act of 1984, Pub. L. No. 98-369 § 129, 98 Stat. 494, 655.
5
  Settlement agents, such as title and/or escrow companies, are typically responsible for ensuring that all of the terms
of the real estate sales contract are met and that all parties involved in the transaction get paid what they are due.
                                                                                                               Page 1
                     Additional Actions Are Needed to Help Ensure Taxpayer
                  Compliance With the Foreign Investment in Real Property Tax Act



involved in the real estate transaction, may assist in determining if the FIRPTA laws apply, the
third party would be held liable only if it knowingly provided false information to the buyer that
the FIRPTA laws would not apply.
There are two tax forms used for reporting and paying the FIRPTA withholding related to the
disposition of U.S. real property interests by foreign sellers. The FIRPTA withholding is to be
reported and remitted using Form 8288, U.S. Withholding Tax Return for Dispositions by
Foreign Persons of U.S. Property Interests, which is required to be filed by the 20th day after the
real estate ownership is transferred. During Tax Year 2012, buyers filed 7,747 Forms 8288
remitting approximately $473 million in FIRPTA withholding to the IRS.6 A Form 8288-A,
Statement of Withholding on Dispositions by Foreign Persons of U.S. Property Interests, is also
required to be attached to Form 8288 for each seller listed on the real estate deed.
Generally, the buyer is required to withhold 10 percent of the amount realized on the sale of
property by the foreign seller.7 There are a number of exceptions from the FIRPTA withholding
requirements, which include:
        The buyer acquires the property for use as a home and the amount realized (generally the
         sales price) is not more than $300,000. The buyer or a member of his or her family must
         have definite plans to reside at the property for at least 50 percent of the number of days
         during each of the first two 12-month periods following the date of ownership transfer.
        The foreign seller provides the buyer with an affidavit indicating that the seller is not
         subject to the FIRPTA filing requirements.
In certain circumstances, such as the property selling for a loss, either the buyer or the foreign
seller can apply for reduced FIRPTA withholding by submitting Form 8288-B, Application for
Withholding Certificate for Dispositions by Foreign Persons of U.S. Real Property Interests, no
later than the date of the property transferring ownership.8 A foreign seller that applies for a
withholding certificate must notify the buyer in writing that the certificate has been applied for
on the day of or prior to the transfer of the property ownership. The buyer is not required to
remit the funds withheld to the IRS until the IRS’s determination is made. The IRS generally
provides a Form 8288-B determination letter (i.e., a withholding certificate) within 90 days of
the date the Form 8288-B is received. If the IRS approves the request for reduced withholding
and no amount of FIRPTA withholding is required, the buyer does not have to file the Forms




6
  Appendix V contains information on the number of Forms 8288 filed and the amount of FIRPTA withholding
reported during Tax Years 2008 through 2012.
7
  A foreign corporation that distributes a U.S. real property interest must withhold a tax equal to 35 percent of the
gain it recognizes on the distribution to its shareholders.
8
  A formal letter containing the same information on the Form 8288-B may also be used, although the use of
Form 8288-B expedites the application process.
                                                                                                                Page 2
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



8288 and 8288-A. If the request is denied or approved for reduced withholding, the Forms 8288
and 8288-A are due 20 days after the IRS’s determination.9
The FIRPTA withholding serves as an incentive for the foreign seller to file a U.S. income tax
return10 reporting the sale of the real estate because the foreign seller can claim a refundable
FIRPTA withholding credit (hereafter referred to as a FIRPTA credit) up to the amount withheld
by the buyer. These tax returns are usually filed in the year following the sale of the property.
The Wage and Investment (W&I) Division verifies FIRPTA credits claimed on U.S. income tax
returns filed by foreign sellers against information in the FIRPTA Database to ensure that the
Forms 8288 and 8288-A were filed by the buyer and that the FIRPTA withholding was remitted
to the IRS. If the tax liability is less than the amount of the FIRPTA credit, the foreign seller
gets a refund of the difference. If the foreign seller does not file a tax return claiming the
FIRPTA credit, the amount becomes revenue for the United States.11
The Large Business and International (LB&I) Division provides oversight of FIRPTA
withholding tax matters, with an emphasis on Service-wide coordination of technical issues,
compliance, and processing. The W&I Division is responsible for processing Forms 8288,
8288-A, and related withholding payments; making determinations on Form 8288-B reduced
withholding requests; verifying and processing FIRPTA credits claimed on Forms 1040NR,
U.S. Nonresident Alien Income Tax Return, and 1120-F, U.S. Income Tax Return of a Foreign
Corporation, for withholding that was paid; and responding to buyer or seller inquiries related to
the FIRPTA.
This review was performed at the W&I Division’s Submission Processing and Accounts
Management functions in Ogden, Utah, with additional information obtained from the
LB&I Division’s Foreign Payments and International Information Reporting Program. This
audit was conducted during the period August 2012 through December 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




9
  Appendix VI contains information on the number of Forms 8288-B requests filed and the number approved during
Tax Years 2008 through 2012.
10
   Most U.S. income tax returns filed by foreign sellers reporting real estate transaction are Form 1040NR,
U.S. Nonresident Alien Income Tax Return, or Form 1120-F, U.S. Income Tax Return of a Foreign Corporation.
11
   Appendix VII contains the results of our analysis of foreign sellers that filed income tax returns and the FIRPTA
credits claimed.
                                                                                                            Page 3
                  Additional Actions Are Needed to Help Ensure Taxpayer
               Compliance With the Foreign Investment in Real Property Tax Act




                                 Results of Review

The IRS cannot identify all foreign seller real estate transactions subject to the FIRPTA and
determine whether they are in compliance with the requirements of the law. Changes in the law
and associated regulations could help to improve the IRS’s ability to effectively administer the
FIRPTA. Internal control weaknesses in processing withholding payments submitted with
Forms 8288 and FIRPTA credits claimed by foreign sellers on their income tax returns resulted
in the issuance of erroneous refunds. In addition, some buyers that properly filed Forms 8288
received erroneous balance due notices when the FIRPTA withholding payments submitted with
the forms were incorrectly processed to their tax accounts. Further, the IRS did not always take
the necessary steps to ensure that buyers filed Forms 8288 and paid the FIRPTA withholding tax
after Form 8288-B determinations.

There Are Some Barriers to Effective Enforcement of the Foreign
Investment in Real Property Tax Act
IRS management cannot provide assurance that foreign sellers subject to the FIRPTA are in
compliance because they have been unsuccessful in their attempts to identify transactions that
are subject to the law. Our analysis of Form 1099-S, Proceeds From Real Estate Transactions,
data indicates that there may be significant noncompliance with the FIRPTA filing and payment
requirements.

Changes to the law and associated regulations could help improve the IRS’s
ability to administer the FIRPTA
The intent of the FIRPTA is to ensure that foreign sellers of U.S. real estate pay income taxes on
any gains resulting from the sale of the property. However, under existing law, it is difficult for
the IRS to ensure that many of the real estate transactions involving foreign sellers are in
compliance with the FIRPTA.
When the FIRPTA was first enacted, it did not include a provision that required withholding on
the sale proceeds of real estate from a foreign seller because Congress was concerned about
protecting withholding agents who might not know that a seller was a foreign person. However,
because of subsequent concerns that the FIRPTA was being easily evaded, a provision in the
Deficit Reduction Act of 1984 made the buyer in a real estate transaction responsible for
withholding on the sale of real estate from foreign sellers.
Because of this change in the law, the responsibility for determining and reporting whether the
real estate transaction is subject to the FIRPTA fell to the buyer. Buyers of real estate can also
be held liable for the FIRPTA withholding tax even if they do not realize that the seller is

                                                                                             Page 4
                     Additional Actions Are Needed to Help Ensure Taxpayer
                  Compliance With the Foreign Investment in Real Property Tax Act



foreign. Figure 1 details the filing and payment responsibilities of the parties involved in a U.S.
real estate transaction involving a foreign seller.
             Figure 1: Responsibilities of Parties Involved in a U.S. Real Estate
                Transaction With a Foreign Seller (X = party is responsible)

                                                                 Foreign                             Settlement
                      Responsibility                              Seller             Buyer             Agent
     Determining if the FIRPTA applies.                                                 X
     Filing Forms 8288 and 8288-A with the IRS.                                         X
     Withholding a portion of the sales proceeds and
                                                                                        X
     remitting it to the IRS.
     Filing a Form 8288-B requesting a reduction in
                                                                     X                  X
     FIRPTA withholding.
     Reporting the real estate transaction on a
     U.S. income tax return, claiming the FIRPTA
                                                                     X
     credit, and paying any additional taxes due on the
     capital gain.
     Preparing and filing the Form 1099-S reporting
                                                                                                           X
     the real estate transaction to the IRS.
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of responsibilities of parties involved
in a U.S. real estate transaction with a foreign seller.

For many buyers, this may be the only real estate they purchase in their lifetime. As such, they
may not have the necessary knowledge or expertise to ensure that a real estate transaction
involving a foreign seller complies with the FIRPTA. Settlement agents, such as title and/or
escrow companies, would be in a better position to facilitate the withholding and remittance of
funds to the Federal Government as appropriate. For example, settlement agents, are generally
responsible for the preparation of Forms 1099-S,12 which are used to report real estate sales
transactions to the IRS. All foreign sellers are subject to real estate transaction reporting
regardless of FIRPTA withholding requirements unless they are exempted under the
Form 1099-S reporting exceptions. These exceptions negate the requirement to file a
Form 1099-S with the IRS and include the sale or exchange of a residence for $250,000 or less
(or $500,000 or less if married) if the seller provides an acceptable written assurance that the


12
  Generally, the Form 1099-S is required to be filed with the IRS to report a real estate transaction that consists in
whole or in part of the sale or exchange for money, indebtedness, property, or services of any present or future
ownership interest including any residential, commercial, or industrial building. A foreign seller of real estate, who
receives a Form 1099-S, may be subject to FIRPTA withholding requirements. However, FIRPTA withholding and
Form 1099-S reporting are independent of each other.
                                                                                                               Page 5
                     Additional Actions Are Needed to Help Ensure Taxpayer
                  Compliance With the Foreign Investment in Real Property Tax Act



residence was the principal residence of the seller and the full amount of the gain on the sale is
excludable from gross income.13
Affidavit of non-foreign status
The FIRPTA also contains exceptions from its reporting requirements that complicate the IRS’s
enforcement efforts. One of these exceptions allows the seller, under the penalty of perjury, to
provide an affidavit14 to the buyer indicating that the seller is not a foreign person subject to the
FIRPTA. This exempts the buyer from FIRPTA reporting as well as the withholding
requirements. However, the buyer could still be held liable if he or she has actual knowledge
that the affidavit the seller provided is false.
While I.R.C. § 1445 allows the Secretary of the Treasury to require the buyer through regulation
to provide the affidavit, there is currently no requirement for buyers to always submit these
affidavits to the IRS. When the IRS does not receive affidavit information, it cannot identify
whether foreign sellers are circumventing the FIRPTA by improperly claiming that they are not
subject to the law when, in fact, they are. Because the affidavits absolve the buyers of their
FIRPTA reporting responsibilities, the IRS is not aware that these transactions may be subject to
the FIRPTA. If these affidavits were all filed with the IRS, it would provide the IRS an
opportunity to assess their validity, as well as test these transactions for FIRPTA compliance.
Properties purchased from a foreign seller for $300,000 or less
Another exception to the FIRPTA reporting requirement is if the buyer acquires the property
from a foreign seller for use as a home and the amount realized (generally the sales price) is not
more than $300,000. The buyer or a member of his or her family must have definite plans to
reside at the property for at least 50 percent of the number of days during each of the first two
12-month periods following the date of ownership transfer. However, the buyer is not required
to provide this information to the IRS. Even if this information was provided, the IRS would
have difficulty verifying its accuracy because of the wording of this exception. For example, the
requirement that the buyer must have “definite plans” to reside at the property is open to
interpretation. Other than this exception, all other real estate sales transactions involving a
foreign seller under this dollar criterion are subject to the FIRPTA.
Resident aliens
The FIRPTA also does not consider resident aliens to be foreign persons who are subject to the
law. A resident alien, for purposes of the FIRPTA, includes a person who has been issued a
“green card” or someone who meets the substantial presence test that requires a person to be
present in the United States for a certain number of days in a year. Undocumented aliens who
meet the substantial presence test are not subject to the FIRPTA.

13
   If the residence is the principal residence of a foreign seller, the seller should meet the physical presence test and
would not be subject to the FIRPTA withholding.
14
   This affidavit is required to contain the seller’s name, Taxpayer Identification Number, and home address.
                                                                                                                  Page 6
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act



IRS efforts to independently identify transactions subject to the FIRPTA have
generally been unsuccessful
To achieve voluntary compliance with the FIRPTA, the IRS primarily relies on its customer
outreach to educate real estate professionals on FIRPTA filing requirements and self-reporting
by buyers of real estate from foreign sellers. *************2*******************
**********************************2*******************************************
**********************************2*******************************************
**********************************2*************************************.
Since the enactment of the FIRPTA, the IRS has made several efforts to obtain and use
information from other Government agencies and the private sector to identify sales of
U.S. property by foreign sellers that would be subject to the FIRPTA. The IRS’s efforts to
identify transactions subject to the FIRPTA have included:
      Contacting the U.S. Department of Commerce for assistance in identifying foreign sales
       of U.S. property. The Department of Commerce information did not identify property
       subject to the FIRPTA.
      Purchasing records from a private company that compiled information from real estate
       transactions. The IRS indicated that the data were not useful because they did not
       specifically indicate that a foreign person was the seller of the property.
      Obtaining U.S. Department of Agriculture data to identify foreign sellers of
       U.S. agricultural property. The IRS analyzed this data and determined that most of
       these transactions were in compliance with U.S. tax laws.
      Obtaining data from the U.S. Securities and Exchange Commission and analyzing it to
       identify foreign persons that had at least a 5-percent interest in a corporation. The IRS
       analyzed this data and determined that in many instances the foreign person was a
       resident alien and not subject to the FIRPTA.




                                                                                            Page 7
                   Additional Actions Are Needed to Help Ensure Taxpayer
                Compliance With the Foreign Investment in Real Property Tax Act



Form 1099-S data indicate potential noncompliance with the FIRPTA
Approximately 53 percent of the real estate sales reported on Forms 1099-S that we tested may
not have properly complied with the FIRPTA. To identify potential noncompliance with
FIRPTA filing requirements, we analyzed data from 6,631 Forms 1099-S that reported
approximately $1.6 billion in real estate transactions to the IRS during Tax Years 2009 through
2011 that met the following criteria that may indicate the real estate sale transaction involved a
foreign seller:
        3,818 Forms 1099-S in which the seller’s Taxpayer Identification Number (TIN) was an
         Individual Taxpayer Identification Number (ITIN) requested by a nonresident alien.15
        2,813 Forms 1099-S in which the seller’s TIN was blank, but the seller had a foreign
         address.
We selected these transactions for testing because they were more likely to be subject to the
FIRPTA. We compared the information from the Forms 1099-S to the FIRPTA Database to
determine if a Form 8288, 8288-A, or 8288-B were filed and the FIRPTA withholding tax was
paid. Our analysis determined that there could be potential noncompliance with the FIRPTA
filing requirements. We reviewed the FIRPTA Database and could not find evidence that a
Form 8288, 8288-A, or 8288-B were filed with the IRS for 53 percent of the real estate
transactions that appear to involve a foreign seller. Figure 2 details the results of our testing,
including those Forms 1099-S transactions that were not reported to the IRS with Forms 8288,
8288-A, or 8288-B.




15
  We determined whether these ITINs were requested by nonresident aliens by comparing the Form 1099-S data to
archived ITIN Database information maintained by TIGTA’s Strategic Data Services Division and to an extract
from the ITIN Real-Time System. We determined that an ITIN belonged to a nonresident alien by reviewing the
reason the ITIN was requested. For example, if the ITIN was requested for FIRPTA purposes, we concluded that
the ITIN was requested by a nonresident alien.
                                                                                                      Page 8
                       Additional Actions Are Needed to Help Ensure Taxpayer
                    Compliance With the Foreign Investment in Real Property Tax Act



        Figure 2: Analysis of Form 1099-S Data for Tax Years 2009 Through 2011

                                                                  Seller’s TIN Was
                                        Seller’s TIN             Blank and Address
                                      Was a Nonresident           Was in a Foreign
                                        Alien ITIN16                   Country                       Totals
                                                     Gross                      Gross                       Gross
                                      Number      Amount of      Number      Amount of      Number       Amount of
                                      of Forms     Proceeds      of Forms     Proceeds      of Forms      Proceeds
                                       1099-S    (in millions)    1099-S    (in millions)    1099-S     (in millions)
     1) Total Form 1099-S real         3,818      $1,126.8        2,813       $456.5         6,631       $1,583.3
     estate transactions tested.      (100%)                     (100%)                     (100%)

     2) Reported to the IRS (on        1,884       $780.3         1,218       $289.8         3,102       $1,070.1
     Forms 8288, 8288-A, or 8288-B)    (49%)                      (43%)                      (47%)

     3) Not reported to the IRS (on    1,934       $346.5         1,595       $166.7         3,529        $513.2
     Forms 8288, 8288-A, or 8288-B)    (51%)                      (57%)                      (53%)

 Source: TIGTA analysis of Tax Years 2009 through 2011 Form 1099-S data from the Information Returns Master
 File and the FIRPTA Database.

While our analysis identified potential noncompliance with the FIRPTA, it was time-consuming
and labor intensive to perform. It would not be efficient for the IRS to use this approach and the
Form 1099-S information in its current format to identify noncompliance. For example, the
Form 1099-S does not contain an identifier, such as a checkbox, that would allow the IRS to
easily identify that the transaction may be subject to the FIRPTA. In addition, the current
Form 1099-S does not include buyer identifying information17 that would allow the IRS to
effectively take enforcement action, because the buyer is currently responsible for filing
Forms 8288 and 8288-A and is liable for withholding the FIRPTA tax from the foreign seller.
Revisions to the Form 1099-S would be needed to ensure that information is provided which
would allow the IRS to identify and pursue noncompliance with the FIRPTA.




16
   We systemically matched the ITINs from Forms 1099-S to information on the FIRPTA Database and the Master
File. If the ITIN was erroneously input into the FIRPTA Database or the Forms 8288, 8288-A, or 8288-B were filed
by a different person, we would not have identified a match.
17
   The current Form 1099-S contains the identifying information for the settlement agent that filed the information
document; however, these third parties are not liable for withholding the FIRPTA tax or for remitting it to the IRS.
                                                                                                               Page 9
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act



Recommendations
The Commissioner, LB&I Division, should:
Recommendation 1: Revise Form 1099-S to include information that is necessary to identify
transactions subject to the FIRPTA, along with the pertinent buyer identifying information that
would allow the IRS to effectively enforce compliance with the current law.
       Management’s Response: The IRS agreed with this recommendation. The LB&I
       Division will work with Counsel, the Small Business/Self-Employed Division, the W&I
       Division, and the Information Technology organization to decide whether changes to
       Form 1099-S are feasible and when they could be implemented. The IRS stated that
       consideration will be given to budget, resources, priorities, and taxpayer burden, and
       noted that all tax form changes also require approval of the Office of Management and
       Budget.
Recommendation 2: Coordinate with the Department of the Treasury’s Office of Tax Policy
to consider establishing a regulation to require buyers to submit to the IRS all affidavits of
non-foreign status related to U.S. real estate sales transactions.
       Management’s Response: The IRS disagreed with this recommendation. Although
       the IRS agreed that having such affidavits would provide critical information related to
       the FIRPTA, it believes that sufficient additional information can be obtained more
       efficiently, and with less taxpayer burden, through the potential revisions to Form 1099-S
       included in Recommendation 1 of this report.
       Office of Audit Comment: Even if the IRS successfully implements the
       recommended changes to Form 1099-S, it would not identify all transactions that are
       subject to the FIRPTA because not all real estate transactions are subject to the Form
       1099-S filing requirements. In addition to the principal residency exemption explained in
       this report, transactions in which the seller was a corporation are not subject to the Form
       1099-S filing requirements. Requiring buyer submission of these affidavits to the IRS
       would help the IRS determine if the related transactions are in compliance with the
       FIRPTA. During the course of our audit, IRS officials expressed concerns about
       improper affidavits being used to circumvent FIRPTA requirements, as well as the
       difficulty in identifying the full extent of this problem. Given these concerns, we
       continue to believe that the IRS should follow through on this recommendation.
Legislative Recommendation
Recommendation 3: Coordinate with the Department of the Treasury’s Office of Tax Policy
to evaluate the feasibility of a legislative proposal to reduce the barriers to effective
administration of the FIRPTA.



                                                                                          Page 10
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act



       Management’s Response: The IRS stated that it will ask the Associate Chief
       Counsel International to apprise the Department of the Treasury’s Office of Tax Policy of
       the recommendation.

Weaknesses in Processing Controls Led to the Issuance of Erroneous
Refunds and Balance Due Notices
Control weaknesses resulted in the issuance of erroneous refunds when withholding payments
submitted with Forms 8288 and/or FIRPTA credits claimed on income tax returns by the foreign
seller were not correctly processed. Filers of Forms 8288 were also unnecessarily burdened
when incorrect balance due notices were sent after FIRPTA withholding payments were not
correctly applied to their tax accounts.

***********************************************2***************************************************
***********************************************2*******************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********************************2*************************************
**********2********.
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************
       ****************************2*************************************


                                                                                           Page 11
                  Additional Actions Are Needed to Help Ensure Taxpayer
               Compliance With the Foreign Investment in Real Property Tax Act



       ***************************2**************************************
       ***************************2**********************
Our review of Master File information for 16,152 Forms 8288 filed during Tax Years 2010
through 2012 identified 509 tax accounts for which refunds were issued totaling $60,564,542.
We reviewed the 509 tax accounts and determined that in most instances the refunds were
appropriate. However, our analysis identified that 32 (6.3 percent) of the 509 refunds totaling
$1,507,146 were erroneously issued to the buyer during Tax Years 2010 through 2012.
*********************************2********************************************
*********************************2********************************************
*********************************2********************************************
*********************************2********************************************
***********2*********** Figure 3 provides the reasons that the 32 erroneous refunds
occurred.
           Figure 3: Erroneous Refunds Issued As a Result of Form 8288
              Processing Errors During Tax Years 2010 Through 2012

                                                                 Erroneous Refunds Issued
                      Reason for Issuance
                                                                Number        Total Amount
        FIRPTA withholding payments were not
        properly frozen when the required hold code or              29         $1,496,966
        freeze code was not properly input.
        FIRPTA withholding payments were
        erroneously posted twice or misapplied from                  3            $10,180
        other tax periods.
        Totals                                                      32         $1,507,146

       Source: TIGTA analysis of Form 8288 information on the Master File.

Fifteen of the 32 erroneous refunds from the buyers’ tax accounts (totaling $1,170,284) could not
be delivered or were repaid, resulting in a net of $336,862 in erroneous refunds. We provided
the results of our analysis to the W&I Division officials and they agreed with our conclusions
that these were all erroneous refunds. As a result, the IRS issued a Service-wide Electronic
Research Program alert in May 2013 to remind Accounts Management function employees to
always input the appropriate hold code on these accounts. In addition, the W&I Division used
the erroneous refund procedures to try and recover the refunds that have not been repaid by the
buyers and make any necessary corrective adjustments to the buyers’ tax accounts. As a result,
$165,219 of the $336,862 had been recovered as of the end of our fieldwork.
In addition, after the alert was issued in May 2013, the W&I Division reviewed eight instances in
which the hold code was required and found that it was being properly applied to those buyers’

                                                                                             Page 12
                   Additional Actions Are Needed to Help Ensure Taxpayer
                Compliance With the Foreign Investment in Real Property Tax Act



accounts. While these early results are positive, the W&I Division should develop formalized
procedures to periodically review refunds originating from buyer tax accounts to ensure that the
internal controls to prevent erroneous refunds are working as intended.

Erroneous balance due notices were sent to buyers that timely filed the
Form 8288 and properly paid the FIRPTA withholding
If the Form 8288 is not filed and/or the FIRPTA withholding payment is not paid to the IRS by
the 20th day after the real estate ownership is transferred, the buyer is subject to penalty and
interest charges. A balance due notice would be systemically generated and sent to the buyer if
the Form 8288 or the FIRPTA withholding payment is not submitted timely.
If a Form 8288-B was filed to request reduced FIRPTA withholding but was denied by the IRS,
the buyer is required to file the Form 8288 and remit the FIRPTA withholding by the 20th day
after the day the IRS mails the determination letter.18 The buyer is instructed to attach the
Form 8288-B determination letter to the Form 8288. When that occurs, the tax period is based
on the date of the letter and the return due date for the Form 8288 should be adjusted on the
Master File. For example, property scheduled to be sold on May 5, 2013, with a request for
reduced FIRPTA withholding, has a determination letter dated June 3, 2013. The Form 8288 due
date would now be June 23, 2013 (not May 25, 2013), and the filing tax period would be
June 2013 instead of May 2013. The withholding paid with the return by June 23, 2013, should
be applied to the June 2013 tax period. However, if the IRS incorrectly processed the
withholding payment received in June 2013 to the May 2013 tax period, this would result in the
erroneous assessment of penalties and interest and the issuance of a balance due notice to the
buyer.
To determine if the withholding payments were correctly processed when the Form 8288 was
filed, we reviewed a statistical stratified random sample of 146 Forms 8288 and 8288-B19 from
the total 11,947 Forms 8288 and 8288-B filed during Tax Year 2012. We identified 19 instances
(13 percent) in which interest and penalties totaling approximately $44,200 were erroneously
assessed after the Form 8288 was filed, which resulted in the issuance of erroneous balance due
notices to the buyers. The reasons that the 19 erroneous assessments occurred were:
        In 11 instances, the FIRPTA withholding payment was applied to the incorrect tax
         period, which was based on the original date the property transferred ownership and not
         the date of the Form 8288-B determination letter (which was a later tax period).



18
   A Form 8288 is not required to be filed if the IRS determined that no FIRPTA withholding was due. This would
occur when evidence was provided with the Form 8288-B showing the real estate was sold for a loss.
19
   The 146 consisted of 50 Forms 8288, 49 Forms 8288-B for which the reduced withholding was approved, and
47 Forms 8288-B for which the reduced withholding was denied. These were statistically valid random samples
from Tax Year 2012 populations of 7,747 Forms 8288, 3,396 Forms 8288-B that were approved, and
804 Forms 8288-B that were denied.
                                                                                                       Page 13
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



        In seven instances, the FIRPTA withholding payments were not timely posted to the
         correct tax account or were originally posted to an incorrect tax period after the
         Forms 8288 were filed. In all seven instances identified, the FIRPTA Database showed
         that the FIRPTA withholding was submitted with the Form 8288.
        *********************************1**************************************
         *********************************1**************************************
         *********************************1**************************************
         *********************************1*****************************.
The IRS has information on the FIRPTA Database that may ensure that most FIRPTA
withholding payments are correctly processed, thus preventing erroneous penalty and interest
assessments to Form 8288 tax accounts. For example, the FIRPTA Database contains
information indicating whether a Form 8288-B was filed that would provide the date of the
determination letter, which is used to determine the adjusted due date of the Form 8288 and the
correct tax period if the IRS determination was completed. A review of this information in the
FIRPTA Database could help ensure that the FIRPTA withholding is applied correctly to buyers’
tax accounts.
Based on the results of our statistical sample, we estimate that a total of 1,446 incorrect balance
due notices containing $1,048,110 in erroneous penalty and interest assessments20 were issued to
buyers during Tax Year 2012. When the sample is forecast over five years, we estimate that
7,230 in incorrect notices containing $5,240,550 in erroneous penalty and interest assessments
could be sent.21 The issuance of erroneous balance due notices creates unnecessary taxpayer
burden and additional work for the IRS in terms of mailing the notices, responding to taxpayers’
inquiries, and reversing the erroneous penalties and interest from the taxpayers’ accounts as well
as processing and refunding any additional payments made by the buyer as a result of the
notices. It is important that the IRS take steps to prevent the issuance of erroneous balance due
notices to buyers who timely file Form 8288 and properly remit FIRTPA withholding to the IRS.

Controls need to be strengthened to ensure that FIRPTA credits applied to
foreign sellers’ tax accounts are proper
The IRS does not have effective controls to ensure that foreign sellers receive only the credits to
which they are entitled. These weak controls resulted in the issuance of erroneous refunds to
some foreign sellers.
Foreign sellers can claim a FIRPTA credit in the amount of sale proceeds withheld by the buyer
and remitted to the IRS when they file a U.S. income tax return reporting the sale of real estate.

20
   We are 90 percent confident that the number of incorrect collection notices range from 784 to 2,109 and the
amount of erroneous penalty and interest assessments range from $229,442 to $1,866,788.
21
   See Appendix IV. The five-year forecast is based on multiplying the base year by five and assumes, among other
considerations, that economic conditions and tax laws do not change.
                                                                                                        Page 14
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



If the sale of real estate did not result in a capital gain, the foreign seller would be entitled to a
full refund of the FIRPTA withholding absent any other tax obligations.
W&I Division officials stated that all FIRPTA credits claimed on income tax returns filed by
foreign sellers are required to be verified against information in the FIRPTA Database to ensure
that the Forms 8288 and 8288-A were filed by the buyer and that the FIRPTA withholding was
remitted to the IRS. This is a manual verification process conducted by W&I Division personnel
on a case-by-case basis when a tax return filed by a foreign seller claims the FIRPTA credit.
According to IRS policy, claims for FIRPTA credits should be denied if they cannot be verified
by information in the FIRPTA Database. However, for situations in which the foreign seller
claims the FIRPTA credit by providing supporting documentation22 that the FIRPTA withholding
was actually withheld but not remitted by the buyer, a Form 8288-A record must be established
in the FIRPTA Database. The FIRPTA credits claimed on tax returns are verified by tax
examiners from the W&I Division’s Submission Processing function at the Austin Campus for
Forms 1040NR and at the Ogden Campus for Forms 1120-F. In addition, customer service
representatives from the IRS’s Accounts Management function at the Cincinnati and
Philadelphia Campuses respond to buyer and foreign seller inquiries and are also authorized to
process claims for FIRPTA credits.
Foreign sellers received FIRPTA credits they were not entitled to, resulting in the issuance of
erroneous refunds
We identified a total of 14 foreign sellers that received $681,829 in FIRPTA credits to which
they were not entitled. This resulted in the issuance of $572,409 in erroneous refunds to the
foreign sellers.
We compared 18,786 FIRPTA credits applied to individual foreign seller tax accounts on the
Master File during Processing Years 2009 through 2012 to the credits claimed on their related
Forms 1040NR and to information on the FIRPTA Database. We identified nine instances in
which individual foreign sellers received $212,058 in FIRPTA credits for which they were not
entitled, resulting in the issuance of $211,031 in erroneous refunds.
        In eight instances, FIRPTA credits that the individual foreign sellers were not entitled to
         were processed and applied to the foreign sellers’ tax accounts by customer service
         representatives at the Philadelphia Campus. Typically, the Austin and Ogden Campuses
         would process the first credit applied to the tax account when the Form 1040NR is
         initially received. The Philadelphia Campus would process all subsequent credits applied

22
  IRS Chief Counsel Advisory 201028040, issued on July 16, 2010, instructed that the IRS can verify a FIRPTA
credit for the foreign seller even though Forms 8288 and 8288-A have not been filed and the withholding was not
paid by the buyer, as long as the foreign seller can provide supporting documentation (e.g., a settlement statement)
showing that the FIRPTA withholding tax was withheld during the sale of the property. In these circumstances, the
W&I Division’s Submission Processing function is required to establish a nonfiler Form 8288-A record in the
FIRPTA Database and provide supporting documentation to the applicable campus compliance functions to initiate
collection of the FIRPTA withholding from the buyer.
                                                                                                           Page 15
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



         to the tax account. The W&I Division official stated that the issuance of these erroneous
         refunds could be the result of miscommunication between the customer service
         representatives at the Philadelphia Campus and tax examiners at the Austin Campus that
         process the claims for individual FIRPTA credits.
        *********************************1**************************************
         *********************************1**************************************
         ***********1*****************.
In addition, we identified 318 FIRPTA credits claimed by business foreign sellers on their Tax
Year 2011 or 2012 tax returns that the IRS verified on the FIRPTA Database. We compared the
FIRPTA credits claimed to the Master File to determine if the credits were correctly processed.
        In four instances, business foreign sellers received $361,378 in FIRPTA credits for which
         they were not entitled when the IRS incorrectly applied duplicate FIRPTA credits to their
         tax accounts. This resulted in the issuance of $361,378 in erroneous refunds.
        ******************************1*****************************************
         ******************************1*****************************************
         ******************************1*****************************************
         ******************************1*****************************************
         ******************************1*****************************************
         ******************************1*****************************************
         **********************1***********.
In all five of these cases, these errors occurred because the FIRPTA credits were incorrectly
applied to the business foreign sellers’ Master File tax accounts due to inaccurate credit reference
numbers.23
We provided information on the 14 foreign sellers that received erroneous FIRPTA credits to
W&I Division officials, and they agreed with our conclusions. They stated that they would
review current procedures to ensure that they clearly instruct the customer service representative
processing the foreign seller’s claim for the FIRPTA credit and the tax examiner verifying the
credit to communicate with each other to verify the total amount of FIRPTA credit available.
They also stated that these cases were forwarded to the Ogden and Philadelphia Campuses for
necessary corrections and recovery of the erroneous refunds. As a result, three erroneous refunds
totaling $342,250 from the total of $572,409 issued had been recovered as of the end of our
fieldwork.


23
  According to IRS guidance and W&I Division training manuals, once a FIRPTA credit has been verified, it is to
be applied to the foreign seller’s Master File tax account using Transaction Code 766 with Credit Reference
Number 332. In these five instances, the credits were applied to the tax account with incorrect credit reference
numbers. Credit reference numbers are important in that they distinguish between the types of credits applied to a
Master File account.
                                                                                                          Page 16
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



Our review of the 318 business FIRPTA credits claimed during Tax Years 2011 and 2012 also
identified an additional 247 credits totaling $62,459,649 that had incorrect credit reference
numbers on the business foreign sellers’ Master File tax accounts. While these errors did not
result in the issuance of erroneous refunds because duplicate FIRPTA credits were not applied to
the foreign seller’s Master File tax account, credit reference numbers are important in that they
provide information as to the type of credit and, in these cases, would be useful in helping IRS
personnel identify whether the FIRPTA credits claimed by the foreign sellers are legitimate and
available on the Master File.
Foreign sellers may have received erroneous FIRPTA credits without any evidence to validate
their claims
We identified a total of 4,253 FIRPTA credits on the Master File claimed by individual foreign
sellers that were processed by the IRS during Processing Year 2012. We matched these credits
that the foreign sellers received to information on the FIRPTA Database to substantiate the
claims for the FIRPTA credit. Our analysis found that 163 individual foreign sellers24 may have
received $2,558,415 in erroneous FIRPTA credits that were applied to their tax accounts on the
Master File but did not have corresponding evidence in the FIRPTA Database indicating that the
foreign seller was entitled to receive the credit. When forecast over five years, we estimate that
there would be 815 individual foreign sellers receiving $12,792,075 in potentially erroneous
credits as a result of the IRS allowing them to claim unsupported FIRPTA credits.25
W&I Division officials advised us that this could have happened because the foreign seller’s
information (e.g., name or TIN) originally reported on the Form 8288 and 8288-A was incorrect
or there was an IRS processing error when inputting the data. We agree that there may be
instances in which the foreign seller’s identifying information may have been incorrectly
reported on Forms 8288 and 8288-A or incorrectly input into the FIRPTA Database that would
have affected our ability to find any supporting evidence. However, if the W&I Division staff
found evidence that would allow them to process the FIRPTA credit claimed on a tax return,
then the FIRPTA Database should have been updated with this additional information at the time
the claim was processed. Updating the information immediately could help alleviate processing
errors that result in sellers receiving FIRPTA credits to which they are not entitled. For example,
an erroneous refund could result when a foreign seller contacts a customer service representative
at the Philadelphia Campus regarding a claim for the FIRPTA credit and the FIRPTA Database
incorrectly shows that a credit has not been claimed and processed on the account.
Without stronger controls, the IRS is at risk of foreign sellers receiving more FIRPTA credits
than they are entitled to receive. The IRS agreed and made revisions during this audit to the

24
   For all 163 foreign sellers, we manually compared their names and the addresses of the property sold to
information on the FIRPTA Database. We also reviewed information on the Integrated Data Retrieval System to
identify information that would allow us to verify the credit.
25
   See Appendix IV. The five-year forecast is based on multiplying the base year by five and assumes, among other
considerations, that economic conditions and tax laws do not change.
                                                                                                        Page 17
                  Additional Actions Are Needed to Help Ensure Taxpayer
               Compliance With the Foreign Investment in Real Property Tax Act



Internal Revenue Manual to strengthen the credit verification procedures. This includes
requiring the review of information on the Integrated Data Retrieval System (IDRS) to verify any
FIRPTA credits allowed during initial processing or any later adjustments. The IDRS
information is then compared to information on the FIRPTA Database to determine the amount
of allowable credits. If these revisions to the procedures are successfully implemented, they
should help ensure that foreign sellers do not receive erroneous FIRPTA credits to which they
are not entitled.
These various errors identified through our review of the FIRPTA credits also occurred in part
because monitoring procedures were not effective in identifying internal control weaknesses and
ensuring that claims for FIRPTA credits were correctly processed. W&I Division officials
indicated that their procedures require that all tax account adjustments are reviewed to evaluate
the quality of account actions; however, based on our results, it does not appear that these
reviews were always effective.
FIRPTA credits not only have the potential to reduce a foreign seller’s tax liability to zero, they
also allow the foreign seller to receive a refund of any remaining credit amount. It is important
that the IRS improve controls over the processing of FIRPTA credits to ensure that foreign
sellers do not receive credits to which they are not entitled, resulting in the issuance of erroneous
refunds.

Recommendations
The Commissioner, LB&I Division, should coordinate with the Commissioner, W&I Division,
to:
Recommendation 4: Develop quality review procedures to periodically review refunds
originating from buyer tax accounts and the processing of FIRPTA credits to provide assurance
that internal controls are working as intended to prevent the issuance of erroneous refunds. This
could be incorporated into the case reviews already being conducted by W&I Division managers.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       perform periodic reviews to ensure that internal controls are working as intended.
Recommendation 5: Develop procedures to reduce the risk that erroneous balance due
notices are sent to buyers that timely filed the Form 8288 and remitted the FIRPTA withholding.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       evaluate existing controls and determine where corrective actions can be implemented to
       most effectively prevent the issuance of erroneous balance due notices arising from
       timely filings of Form 8288.
Recommendation 6: Ensure that FIRPTA credits are applied to tax accounts with the correct
credit reference number.


                                                                                             Page 18
                   Additional Actions Are Needed to Help Ensure Taxpayer
                Compliance With the Foreign Investment in Real Property Tax Act



        Management’s Response: The IRS agreed with this recommendation. The IRS
        stated that the cause of the erroneous credit reference numbers recorded when FIRPTA
        credits were posted was found to have been a programming error. The error caused
        duplicate credit reference number postings that resulted in some erroneous refunds. The
        Information Technology organization corrected the error. A second programming error,
        causing the posting of duplicate credits, was also identified and subsequently corrected.
        The IRS believes that the programming errors were the cause of the exception cases
        identified by our analysis and, with the corrections that were made, does not believe
        additional corrective actions are necessary to address this issue.
        Office of Audit Comment: Because we were notified of these corrective actions after
        the conclusion of our review, we did not have the opportunity to evaluate the
        effectiveness of the programming changes in preventing these errors. However, if the
        programming changes were implemented as described by the IRS, we believe that the
        changes should correct the issue we identified.

The Internal Revenue Service Did Not Always Ensure Buyer Filing and
Paying Compliance After a Withholding Determination Was Made on
Form 8288-B
The IRS did not take the necessary actions to ensure that 200 buyers filed Form 8288 and paid
the FIRPTA withholding after a determination was made on a submitted Form 8288-B. Our
analysis of Calendar Year 2011 Form 8288-B data from the FIRPTA Database identified
587 Forms 8288-B for which a request for a reduction of FIRPTA withholding was denied and
522 Forms 8288-B for which a request for a reduced FIRPTA withholding amount was
approved.
We compared the Form 8288-B data to the Form 8288 filing data from the FIRPTA Database, as
well as the Master File, to determine if the buyers subsequently filed a Form 8288 and paid the
FIRPTA withholding. We found that for 158 (26.9 percent) of the 587 Forms 8288-B that were
denied and for 42 (8 percent) of the 522 Forms 8288-B that were approved for a lesser amount of
FIRPTA withholding, no Forms 8288 were filed and no FIRPTA withholding was paid. As a
result, 200 buyers did not properly withhold from the foreign sellers and remit $8,956,060 in
FIRPTA withholding to the IRS. When forecast over five years, we estimate that there would be
1,000 taxpayers that fail to properly file Form 8288, resulting in $44,780,300 in FIRPTA
withholding taxes not being paid.26
Figure 4 shows the results of our analysis to determine if a Form 8288 was subsequently filed
and the FIRPTA withholding was paid after the IRS made a Form 8288-B determination.


26
  See Appendix IV. The five-year forecast is based on multiplying the base year by five and assumes, among other
considerations, that economic conditions and tax laws do not change.
                                                                                                       Page 19
                  Additional Actions Are Needed to Help Ensure Taxpayer
               Compliance With the Foreign Investment in Real Property Tax Act



            Figure 4: Analysis of Buyer Form 8288 Filing and Withholding
               Payment Compliance After a Form 8288-B Determination

                                                           Number of    Amount of FIRPTA
                                                           Forms 8288     Withholding
               Tax Year 2011               Population       Not Filed       Not Paid
      Forms 8288-B FIRPTA
      withholding reduction denied.             587              158         $8,651,422
      Forms 8288-B FIRPTA
      withholding reduction approved.           522               42           $304,638
      Totals                                  1,109              200         $8,956,060
    Source: TIGTA analysis of FIRPTA Database and Master File data.

The IRS has a process to match the Forms 8288-B that were denied to the Forms 8288 that were
filed to identify those buyers that did not subsequently file a Form 8288 after a request for
reduced FIRPTA withholding was denied. A report is to be generated that identifies those
instances in which a Form 8288 was not filed. W&I Division personnel are then required to
follow up on this information to ensure buyer compliance with the FIRPTA. This includes
sending a contact letter to the buyer indicating that the Form 8288 and the FIRPTA withholding
were due and referring any applicable cases for examination. These steps are to be documented
in the FIRPTA Database to ensure that the proper enforcement actions were taken. However, the
IRS does not have a similar procedure to identify those buyers that did not file a Form 8288 after
the Form 8288-B was approved for a reduced withholding amount.
We provided our results to IRS management, and they agreed with our conclusions. They
discovered that the report needed to identify those buyers that did not file a Form 8288 after the
Form 8288-B was denied was not generating. As a result, IRS personnel did not follow up with
these buyers to ensure their compliance. In addition, a lack of procedures to follow up on
Form 8288-B requests that were approved for a reduced withholding amount prevented the IRS
from identifying buyer noncompliance in this area of the population. Without stronger
monitoring and procedural controls, the IRS cannot ensure buyer compliance with Form 8288
filing and FIRPTA withholding payment requirements.

Recommendation
The Commissioner, LB&I Division, should coordinate with the Commissioner, W&I Division,
to:
Recommendation 7: Establish a process to identify noncompliant buyers with Forms 8288-B
approved for a reduced FIRPTA withholding amount. In addition, strengthen monitoring
controls to ensure that the required reports are generated and that W&I Division personnel take


                                                                                           Page 20
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act



the necessary actions to ensure buyer compliance with the FIRPTA after Form 8288-B
withholding reduction requests are evaluated.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the Accounts Management function is working with the Information
       Technology organization to restart the necessary report. They are taking steps to reinstate
       the reporting process and reviewing procedures to ensure that monitoring controls are
       effective in identifying necessary follow-up actions with regard to Forms 8288 and
       8288-B compliance. Evaluation of the report output and procedural changes will occur
       through the close of Fiscal Year 2015.




                                                                                          Page 21
                       Additional Actions Are Needed to Help Ensure Taxpayer
                    Compliance With the Foreign Investment in Real Property Tax Act



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine the effectiveness of the IRS’s efforts in
ensuring taxpayer compliance related to the disposition of foreign investments in U.S. real
property. To accomplish our objective, we:
I.         Evaluated the controls related to the detection of noncompliance with FIRPTA
           requirements and the processing of the following forms by reviewing IRS policies and
           procedures and interviewing key LB&I and W&I Divisions personnel. Forms included:
           A. Form 8288, U.S. Withholding Tax Return for Dispositions by Foreign Persons of
              U.S. Real Property Interests, reporting the sale of real property by foreign persons
              subject to FIRPTA and remitting the FIRPTA withholding tax.
           B. Form 8288-A, Statement of Withholding on Dispositions by Foreign Persons of
              U.S. Real Property Interests, attached to Form 8288 for each seller listed on the real
              estate deed.
           C. Form 8288-B, Application for Withholding Certificate for Dispositions by Foreign
              Persons of U.S. Real Property Interests, requesting reduced FIRPTA withholding.
           D. Related tax return forms (i.e., Forms 1040NR, U.S. Nonresident Alien Income Tax
              Return, and 1120-F, U.S. Income Tax Return of a Foreign Corporation) claiming
              FIRPTA tax withholding credits.
II.        Evaluated IRS case processing actions taken by W&I Division Accounts Management
           function1 and Submission Processing function personnel when Forms 8288, 8288-A, and
           8288-B were received.
           A. Selected a judgmental sample2 of 50 Forms 8288 with the associated Forms 8288-A
              from the population of 7,747 Forms 8288 filed during Tax Year 2012 according to
              information on the FIRPTA Database. We determined whether the Forms 8288 were
              properly processed by comparing the information on the forms to real estate
              information on the law enforcement Consolidated Lead Evaluation and Reporting
              Database and reviewing the information entered onto the FIRPTA Database. We
              used a judgmental sample because we were not projecting the review results.
           B. Selected judgmental samples of 25 Forms 8288-B from the population of 3,396 that
              were approved for reduced withholding and 25 Forms 8288-B from the population of

1
    See Appendix VIII for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 22
                   Additional Actions Are Needed to Help Ensure Taxpayer
                Compliance With the Foreign Investment in Real Property Tax Act



             804 that were denied according to information on the FIRPTA Database. These
             Form 8288-B requests were all filed during Tax Year 2012. We determined whether
             the IRS’s determinations on the Form 8288-B requests were correct by analyzing
             supporting documentation provided with the form. We used a judgmental sample
             because we were not projecting the review results.
        C. Selected a statistical stratified random sample of 146 Forms 8288 and 8288-B from
           the total of 11,947 filed during Tax Year 2012 according to the FIRPTA Database
           and, using the IDRS, determined whether the withholding payments were correctly
           processed when the Form 8288 was filed. We selected the sample using a confidence
           level of 90 percent, a precision rate of ±7 percent, and an error rate of 10 percent. A
           statistical sample was taken because we wanted to estimate the number of erroneous
           collection notices issued to filers of Form 8288. We shared our sampling
           methodology with our contracted statistician, who confirmed the accuracy of our
           methodology.
        D. Analyzed Master File information from TIGTA’s Data Center Warehouse and
           identified a population of 509 Forms 8288 filed during Tax Years 2010 through 2012
           with refunds issued totaling $60,564,542 and, using the IDRS, determined whether
           the refunds were appropriate.
III.    Determined whether FIRPTA credits claimed by the foreign seller on Forms 1040NR or
        1120-F were properly verified and processed by IRS personnel.
        A. Identified a total of 4,253 individual FIRPTA credits that were applied to Master File
           tax accounts during Processing Year 2012 from our analysis of data on TIGTA’s Data
           Center Warehouse. We compared these 4,253 credits to data on the FIRPTA
           Database and Master File using the IDRS and determined whether the FIRPTA
           credits were properly supported with a Form 8288 withholding payment.
        B. Identified a total of 318 business FIRPTA credits that were claimed by a foreign
           seller and verified by the IRS that the seller was entitled to the claim for Tax
           Year 2011 and 2012 business tax returns3 from the FIRPTA Database. We compared
           these 318 credits to Master File data extracted from TIGTA’s Data Center Warehouse
           and by analyzing the IDRS and determined whether the credits were correctly
           processed.
        C. Identified a total of 18,786 individual FIRPTA credits that were applied to Master
           File tax accounts during Processing Years 2009 through 2012. We compared these
           18,786 credits to data on the Return Transaction File data extracted from TIGTA’s



3
 Although these credits are generally claimed on Form 1120-F, this category also includes FIRPTA credits claimed
by partnerships on Form 8804, Annual Return for Partnership Withholding.
                                                                                                       Page 23
                   Additional Actions Are Needed to Help Ensure Taxpayer
                Compliance With the Foreign Investment in Real Property Tax Act



            Data Center Warehouse and to data on the FIRPTA Database and determined whether
            the credits applied to the accounts were correctly processed.
IV.     Evaluated the IRS’s processes for identifying noncompliance with FIRPTA withholding
        and filing requirements.
        A. Identified a total of 587 Forms 8288-B that were denied and 522 Forms 8288-B that
           were approved but a reduced amount of FIRPTA withholding was still due. These
           Forms 8288-B were all filed during Tax Year 2011 according to the Form 8288-B
           request data from the FIRPTA Database. We compared information from the
           1,109 Forms 8288-B to the Form 8288 filing data from the FIRPTA Database and
           determined whether a Form 8288 was filed and the FIRPTA withholding was paid.
        B. Identified 6,631 Forms 1099-S, Proceeds From Real Estate Transactions, filed
           during Processing Years 2009 through 2011 from the Information Returns Master
           File. These Form 1099-S transactions were those for which the seller’s TIN was an
           ITIN requested by a nonresident alien4 or the seller’s TIN was blank and the seller
           had a foreign address. We compared the Forms 1099-S for which the seller’s TIN
           was an ITIN requested by a nonresident alien by matching the ITIN on the form to the
           seller’s ITIN on the FIRPTA Database to determine if a Form 8288 or 8288-B was
           filed. We compared the Forms 1099-S for which the seller’s TIN was blank and the
           seller had a foreign address by comparing the seller’s name and the address of the real
           estate purchased to information on the FIRPTA Database to determine whether a
           Form 8288 or 8288-B was filed.
        C. Identified 3,482 Forms 8288-A for which the date of the property ownership transfer
           was Tax Year 2011 with a FIRPTA withholding amount of at least $10,000 from the
           FIRPTA Database. We reviewed these records on the FIRPTA Database to
           determine if a tax return was filed claiming the FIRPTA credit. For those records
           indicating that a tax return was not filed claiming the FIRPTA credit but a foreign
           seller’s TIN was present, we compared this information to Master File data to
           determine whether a tax return was filed by the foreign seller for Tax Year 2011.
Data validation methodology
During this review, we relied on data extracts from the IRS’s Master File and the Return
Transaction File located at TIGTA’s Data Center Warehouse. We relied on data validation tests
conducted by the TIGTA Office of Investigations’ Strategic Data Services for the accuracy of the
data. We also relied on data extracts from the IRS’s Information Returns Master File that were

4
  We determined if these ITINs were requested by nonresident aliens by comparing the Form 1099-S data to
archived ITIN Database information maintained by TIGTA’s Strategic Data Services Division and to an extract
from the ITIN Real-Time System. We determined that an ITIN belonged to a nonresident alien based on reviewing
the reason the ITIN was requested. For example, if the ITIN was requested for FIRPTA purposes, we concluded
that the ITIN was requested by a nonresident alien.
                                                                                                     Page 24
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act



provided by the TIGTA Office of Investigations’ Strategic Data Services and the FIRPTA
Database provided by the IRS’s Information Technology organization. Before relying on this
data, we ensured that each file contained the specific data elements we requested. In addition,
we selected random samples of each extract and verified that the data in the extracts were the
same as the data captured on the IRS’s IDRS. As a result, we determined that the data used in
our review were sufficiently reliable to perform our audit analyses.
We determined if ITINs were requested by nonresident aliens by analyzing archived ITIN
Database information maintained by TIGTA’s Strategic Data Services Division. However, we
were informed that this information was used for specific investigative purposes, and while
accurate, may not be complete for auditing purposes. As a result, there is a possibility that the
number of exceptions may actually be higher in the population than we reported. We also relied
on an extract from the ITIN Real-Time System provided by the Strategic Data Services Division.
Before relying on this data, we selected random samples from both extracts and verified that the
data were the same as the data captured on the IRS’s IDRS. As a result, we determined that the
data used in our review were sufficiently reliable to perform our audit analyses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
identifying noncompliance with FIRPTA filing requirements; the processing of the Forms 8288,
8288-A, and 8288-B; and the processing of FIRPTA credits claimed on the income tax returns of
foreign sellers. We evaluated these controls by interviewing key personnel, analyzing data, and
reviewing policies and procedures.




                                                                                           Page 25
                Additional Actions Are Needed to Help Ensure Taxpayer
             Compliance With the Foreign Investment in Real Property Tax Act



                                                                            Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Doris Hynes, Audit Manager
Jeff K. Jones, Lead Auditor
Todd M. Anderson, Senior Auditor
Victor Taylor, Auditor




                                                                                    Page 26
                Additional Actions Are Needed to Help Ensure Taxpayer
             Compliance With the Foreign Investment in Real Property Tax Act



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (International), Large Business and International Division SE:LB:IN
Deputy Commissioner, Wage and Investment Division SE:W
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Large Business and International Division SE:LB
    Commissioner, Wage and Investment Division SE:W
Assistant Secretary of the Treasury for Tax Policy




                                                                                    Page 27
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
        Taxpayer Burden – Potential; 1,446 taxpayers (i.e., buyers) incorrectly issued balance
         due notices during Tax Year1 2012 containing $1,048,110 in erroneous penalty and
         interest assessments, or 7,230 taxpayers incorrectly issued balance due notices containing
         $5,240,550 in erroneous penalty and interest assessments when the sample is forecast
         over five years (see page 11).2

Methodology Used to Measure the Reported Benefit:
We reviewed a statistical stratified random sample of 146 Forms 8288, U.S. Withholding Tax
Return for Dispositions by Foreign Persons, and 8288-B, Application for Withholding
Certificate for Dispositions by Foreign Persons of U.S. Real Property Interests,3 from the total of
11,947 Forms 8288 and 8288-B filed during Tax Year 2012. We identified 19 buyers
(13 percent) for which interest and penalties totaling approximately $44,200 were erroneously
assessed after the Form 8288 was filed, which resulted in the issuance of erroneous balance due
notices to the buyers.
To project our results, we used a stratified random sample of 146. Our analysis of the sample
identified a total of 19 errors. The average error rate of incorrect balance due notices issued to
buyers was determined to be 12.107 percent, and the average amount of erroneously assessed
interest and penalties was $87.73. Based on the error rates, we project the number of incorrect
balance due notices issued during Tax Year 2012 was 1,446 (11,947 x 12.107 percent) and the
amount of erroneous interest and penalty assessments was $1,048,110 (11,947 x $87.73).




1
  See Appendix VIII for a glossary of terms.
2
  The five-year forecast is based on multiplying the base year by five and assumes, among other considerations, that
economic conditions and tax laws do not change.
3
  The 146 consisted of 50 Forms 8288, 49 Forms 8288-B for which the reduced withholding was approved, and
47 Forms 8288-B for which the reduced withholding was denied. These were statistically valid random samples
from Tax Year 2012 populations of 7,747 Forms 8288, 3,396 Forms 8288-B that were approved, and
804 Forms 8288-B that were denied.
                                                                                                           Page 28
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



We also forecast that 7,230 (1,446 x 5) incorrect balance due notices could be issued to buyers
with erroneous interest and penalty assessment of $5,240,550 ($1,048,110 x 5) over the next
five years.4

Type and Value of Outcome Measure:
       Revenue Protection – Actual; 17 taxpayers (e.g., buyers) received erroneous refunds
        totaling $336,862 during Tax Years 2010 through 2012 in FIRPTA withholding
        payments (see page 11).

Methodology Used to Measure the Reported Benefit:
Our review of Master File information for 16,152 Forms 8288 filed during Tax Years 2010
through 2012 identified 509 buyers’ tax accounts with refunds issued totaling $60,564,542. We
reviewed the 509 tax accounts and found that 32 of the refunds (6.3 percent) totaling $1,507,146
were erroneously issued to the buyers during Tax Years 2010 through 2012. Fifteen of the
erroneous refunds from the buyers’ tax accounts totaling $1,170,284 could not be delivered or
were repaid, resulting in a net of $336,862 in erroneous refunds.

Type and Value of Outcome Measure:
       Revenue Protection – Actual; 14 taxpayers (i.e., foreign sellers) received $681,829 in
        erroneous FIRPTA credits to which they were not entitled (see page 11).

Methodology Used to Measure the Reported Benefit:
We compared 18,786 FIRPTA credits applied to individual tax accounts on the Master File
during Processing Years 2009 through 2012 to the FIRPTA withholding credits claimed on the
related Forms 1040NR, U.S. Nonresident Alien Income Tax Return, and to information on the
FIRPTA Database. We identified nine instances in which individual foreign sellers received
$212,058 in FIRPTA credits for which they were not entitled, resulting in the issuance of
$211,031 in erroneous refunds.
We also identified 318 business FIRPTA credits claimed by foreign sellers on their Tax
Year 2011 or 2012 tax returns that the IRS verified on the FIRPTA Database. We compared the
FIRPTA credits claimed to the Master File to determine if the credits were correctly processed.
We identified four instances in which business foreign sellers received $361,378 in FIRPTA
credits for which they were not entitled, resulting in the issuance of $361,378 in erroneous
refunds.




4
 The five-year forecast is based on multiplying the base year by five and assumes, among other considerations, that
economic conditions and tax laws do not change.
                                                                                                          Page 29
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



In one other instance, a business foreign seller received a FIRPTA credit of $108,393 for which
they were not entitled; however, a potentially erroneous refund of $108,393 was frozen prior to
issuance because an unrelated examination of the taxpayer’s tax return was initiated which froze
the credit on the taxpayer’s account. After we provided this information to the IRS, the
erroneous FIRPTA credit was reversed.

Type and Value of Outcome Measure:
        Reliability of Information – Potential; 247 tax accounts on the Master File for which
         FIRPTA credits had incorrect credit reference numbers (see page 11).

Methodology Used to Measure the Reported Benefit:
We compared 318 FIRPTA credits claimed by business foreign sellers and processed by the IRS
according to the FIRPTA Database for Tax Years 2011 and 2012 to the Master File. We
identified 247 tax accounts on the Master File with FIRPTA credits totaling $62,459,649 that had
incorrect credit reference numbers.

Type and Value of Outcome Measure:
        Revenue Protection – Potential; 163 taxpayers (i.e., individual foreign sellers) received
         $2,558,415 in erroneous FIRPTA credits. When forecast over five years, we estimate
         that 815 taxpayers will receive $12,792,075 in erroneous FIRPTA credits (see page 11).5

Methodology Used to Measure the Reported Benefit:
We identified a total of 4,253 FIRPTA credits claimed by individual foreign sellers that were
processed by the IRS during Processing Year 2012. We matched the credits the foreign sellers
received to the information on the FIRPTA Database to substantiate their claims for the FIRPTA
credit. Our analysis found that 163 individual foreign sellers6 may have received $2,558,415 in
erroneous FIRPTA credits that were applied to their tax accounts on the Master File but did not
have corresponding evidence in the FIRPTA Database indicating that the foreign seller was
entitled to the credit. When forecast over five years, we estimate that there would be 815
individual foreign sellers receiving $12,792,075 in potentially erroneous credits as a result of
the IRS allowing them to claim unsupported FIRPTA credits.




5
  The five-year forecast is based on multiplying the base year by five and assumes, among other considerations, that
economic conditions and tax laws do not change.
6
  For all 163 foreign sellers, we manually compared their names and the addresses of the property sold to
information on the FIRPTA Database. We also reviewed information on the IDRS to identify information that
would allow us to verify the credit.
                                                                                                           Page 30
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act



Type and Value of Outcome Measure:
       Revenue Protection – Potential; 200 taxpayers (i.e., buyers) that did not properly file
        Forms 8288 and remit $8,956,060 in FIRPTA withholding to the IRS. When forecast
        over five years, we estimate that there would be 1,000 taxpayers that fail to properly file
        Form 8288, resulting in $44,780,300 in FIRPTA withholding taxes not being paid (see
        page 19).7

Methodology Used to Measure the Reported Benefit:
Our analysis of Calendar Year 2011 Form 8288-B request data from the FIRPTA Database
identified 587 Forms 8288-B for which a request for a reduction of FIRPTA withholding was
denied and 522 Forms 8288-B for which a request for a reduced FIRPTA withholding amount
was approved. We compared this data to the Forms 8288 filing data from the FIRPTA Database
to determine if the buyers subsequently filed a Form 8288 and paid the FIRPTA withholding.
We did not find evidence that buyers filed a Form 8288 for 158 of the 587 Forms 8288-B that
were not approved and for which $8,651,422 in withholding tax was due. We also did not find
evidence that buyers filed a Form 8288 for 42 of the 522 Forms 8288-B that were approved but
for which reduced FIRPTA withholding totaling $304,638 was still owed. As a result,
200 buyers did not properly withhold from foreign sellers and remit $8,956,060 in FIRPTA
withholding to the IRS. When forecast over five years, we estimate that there would be
1,000 buyers that fail to properly file Form 8288, resulting in $44,780,300 million in FIRPTA
withholding taxes not being paid.




7
 The five-year forecast is based on multiplying the base year by five and assumes, among other considerations, that
economic conditions and tax laws do not change.
                                                                                                          Page 31
                                                   Additional Actions Are Needed to Help Ensure Taxpayer
                                                Compliance With the Foreign Investment in Real Property Tax Act



                                                                                                                   Appendix V

    Form 8288 and Foreign Investment in Real Property
             Tax Act Withholding Statistics

While the number of Form 8288, U.S. Withholding Tax Return for Dispositions by Foreign
Persons of U.S. Real Property Interests, tax returns filed has increased, the amount of FIRPTA
withholding remitted by buyers of U.S. properties from foreign sellers has decreased slightly in
the past year. According to data in the IRS’s FIRPTA Database,1 a total of 7,747 Form 8288 tax
returns were filed during Tax Year 2012, which represents a 38 percent increase from the prior
tax year. In addition, the amount of FIRPTA withholding decreased by 6 percent from
$504 million in Tax Year 2011 to $473 million in Tax Year 2012. Figure 1 shows the number of
Forms 8288 filed and the amount of FIRPTA withholding reported during Tax Years 2008
through 2012.
                   Figure 1: Comparison of the Number of Forms 8288 to the Amount of
                        FIRPTA Withholding During Tax Years 2008 Through 2012

                                                    Amount of FIRPTA Withholding            Number of Forms 8288 Filed
                                             $600
          FIRPTA Withholding (in millions)




                                                                                                                  7,747
                                                      6,935
                                             $500
                                                                                                    5,613
                                             $400                                   5,096
                                                                    4,179
                                             $300

                                             $200

                                             $100

                                              $0
                                                       2008          2009            2010           2011          2012
                                                                                   Tax Year

        Source: TIGTA analysis of the FIRPTA Database.



1
    See Appendix VIII for a glossary of terms.
                                                                                                                          Page 32
                                           Additional Actions Are Needed to Help Ensure Taxpayer
                                        Compliance With the Foreign Investment in Real Property Tax Act



                                                                                                              Appendix VI

                                                         Form 8288-B Statistics

The number of Form 8288-B, Application for Withholding Certificate for Dispositions by
Foreign Persons of U.S. Real Property Interests, determination requests filed has increased in
recent years. There were a total of 4,723 requests during Tax Year1 2012, a 21 percent increase
from the prior tax year. Figure 1 compares the number of Form 8288-B requests received to the
number approved during Tax Years 2008 through 2012. During that period, about 80 percent of
the requests were approved by the IRS granting either an exemption from or a reduction in
FIRPTA withholding.
                             Figure 1: Comparison of the Number of Forms 8288-B Received
                              to the Number Approved During Tax Years 2008 Through 2012


                                              Number of Forms 8288‐B Received     Number of Forms 8288‐B Approved

                                      5,000
                                      4,500
             Number of Forms 8288‐B




                                      4,000
                                      3,500
                                      3,000
                                      2,500
                                      2,000
                                      1,500
                                      1,000
                                        500
                                          0
                                                     2008           2009         2010          2011          2012
                                                                                Tax Year


          Source: TIGTA analysis of the FIRPTA Database.




1
    See Appendix VIII for a glossary of terms.
                                                                                                                    Page 33
                       Additional Actions Are Needed to Help Ensure Taxpayer
                    Compliance With the Foreign Investment in Real Property Tax Act



                                                                                                  Appendix VII

            Income Tax Returns Filed by Foreign
    Sellers and Foreign Investment in Real Property Tax
                    Act Credits Claimed

We conducted an analysis of 3,482 Forms 8288-A, Statement of Withholding on Dispositions by
Foreign Persons of U.S. Real Property Interests, filed during Tax Year1 20112 for which the
withholding tax paid was at least $10,000 (we judgmentally selected this amount as
representative of a large withholding) to determine if a Tax Year 2012 U.S. income tax return
was filed by the foreign seller. The analysis showed that 71 percent of the 2,882 individual and
78 percent of the 600 business foreign sellers tested filed a tax return the following year to claim
the FIRPTA credit. However, we did not find evidence that 982 foreign sellers filed a tax return
reporting real estate transactions claiming the FIRPTA credit. This resulted in approximately
$60.7 million in revenue for the United States. Figure 1 provides additional details of our
analysis of the 3,482 foreign sellers.
              Figure 1: Analysis of Tax Year 2011 Income Tax Returns Filed for
                  Which the FIRPTA Withholding Paid Was at Least $10,000

                                                                                                            Total
                                                          FIRPTA                    FIRPTA       Total     FIRPTA
                                                         Tax Paid                  Tax Paid      Tax      Tax Paid
                                           Individuals   (millions)   Businesses   (millions)   Returns   (millions)
     Forms 8288-A filed with the
     IRS during Tax Year 2011 for
                                             2,882        $147.7         600        $192.4       3,482     $340.1
     which the FIRPTA withholding
     was at least $10,000.
     Total Tax Year 2012 U.S.
     income tax returns not filed by
     the foreign seller resulting in the      849                        133                     982
                                                           $40.0                     $20.7                  $60.7
     Tax Year 2011 FIRPTA                    (29%)                      (22%)                   (28%)
     withholding becoming revenue
     for the United States.
    Source: TIGTA analysis of the FIRPTA Database and Master File data.




1
  See Appendix VIII for a glossary of terms.
2
  We analyzed the Forms 8288-A filed during Tax Year 2011 because that allowed us to determine if Tax Year 2011
income tax returns were filed during Processing Year 2012.
                                                                                                             Page 34
                Additional Actions Are Needed to Help Ensure Taxpayer
             Compliance With the Foreign Investment in Real Property Tax Act



                                                                                   Appendix VIII

                               Glossary of Terms

Term                           Definition
Accounts Management            This is the organization within the W&I Division responsible for
Function                       taxpayer service by answering taxpayer tax law/account inquiries,
                               providing information on the status of their tax returns/refunds, and
                               resolving the majority of issues and questions to settle their tax
                               accounts.
Campus                         The data processing arm of the IRS. The campuses process paper and
                               electronic submissions, correct errors, and forward data to the
                               Computing Centers for analysis and posting to taxpayer accounts.
Consolidated Lead Evaluation   A commercial investigative platform designed for professionals who
and Reporting Database         need information about people and companies, including real estate
                               transactions.
Credit Reference Number        A three-digit number that distinguishes between the types of credits
                               applied to a Master File tax account.
Data Center Warehouse          A collection of IRS databases containing various types of taxpayer
                               accounts and IRS and TIGTA employee information that is maintained
                               by TIGTA for the purpose of analyzing data for ongoing audits.
FIRPTA Database                A computer application used for the processing, storage, and retrieval
                               of the following forms:
                                Form 8288, U.S. Withholding Tax Return for Dispositions by
                                 Foreign Persons of U.S. Real Property Interests.
                                Form 8288-A, Statement of Withholding on Dispositions by
                                 Foreign Persons of U.S. Real Property Interests.
                                Form 8288-B, Application for Withholding Certificate for
                                 Dispositions by Foreign Persons of U.S. Real Property Interests.
                               This system is also used to send correspondence to the buyer if the
                               Form 8288-A is incomplete.
Hold Code                      These codes are used to prevent or delay the issuance of a refund or
                               notice, such as when a particular adjustment action or correction is
                               being made to a tax account.



                                                                                               Page 35
                    Additional Actions Are Needed to Help Ensure Taxpayer
                 Compliance With the Foreign Investment in Real Property Tax Act




Term                          Definition
Individual Taxpayer           A tax processing number issued by the IRS to individuals who are
Identification Number         required to have a U.S. TIN but who do not have, and are not eligible
                              to obtain, a Social Security Number from the Social Security
                              Administration. Individuals who need an ITIN include U.S. resident
                              aliens and nonresident aliens who are required to file U.S. income tax
                              returns.

Information Returns Master    IRS database that contains third-party information documents
File                          for taxpayers, such as Form W-2, Wage and Tax Statement, and
                              Form SSA-1099, Social Security Benefit Statement.

Integrated Data Retrieval     IRS computer system capable of retrieving or updating stored
System                        information. It works in conjunction with a taxpayer’s account
                              records.
Internal Revenue Code         Federal tax law begins with the I.R.C., enacted by Congress in Title 26
                              of the U.S. Code. It is the main body of domestic statutory tax law of
                              the United States organized topically, including laws covering the
                              income tax, payroll taxes, gift taxes, estate taxes, and statutory excise
                              taxes. Its implementing agency is the IRS.

Internal Revenue Manual       Provides procedural guidance for IRS operations.
ITIN Database                 IRS application processing system used to control and track
                              applications for ITINs. This system was replaced by the ITIN
                              Real-Time System in July 2006.
ITIN Real-Time System         A web-based application used by ITIN tax examiners to process and
                              record applicant submissions. Tax examiners review all applications
                              and attached documents, then input the information into the ITIN
                              Real-Time System.
Master File                   The IRS database that maintains transactions or records of tax
                              accounts.
Nonresident Alien             Any individual who is not a U.S. citizen or U.S. national. A
                              nonresident alien is an alien who has not passed the green card test or
                              the substantial presence test.
Processing Year               The calendar year in which the tax return or related document is
                              processed by the IRS.
Resident Alien                Any individual who is not a U.S. citizen or U.S. national. A resident
                              alien is an alien who has passed either the green card test or the
                              substantial presence test.


                                                                                               Page 36
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act




Term                       Definition
Return Transaction File    Contains data transcribed from initial input of the original tax returns
                           during return processing.
Service-wide Electronic    A Service-wide electronic research portal designed to provide
Research Program Alert     employees from all IRS functions intranet access to the Internal
                           Revenue Manual and other reference materials and to retrieve
                           frequently referenced documents required to perform their jobs. The
                           use of alerts is reserved for quick, need-to-know information that does
                           not change the content of the Internal Revenue Manual.
Settlement Agent           An individual or firm responsible for completing the final stages of a
                           sale (known as the “settlement”) between the buyer and seller.
                           Settlement agents are usually responsible for facilitating payment from
                           the buyer to the seller and transferring the real estate property from the
                           seller to the buyer.
Social Security Number     In the United States, a Social Security Number is a nine-digit number
                           issued to U.S. citizens, permanent residents, and temporary (working)
                           residents by the Social Security Administration.
Strategic Data Services    The organization within the TIGTA that uses computer code to extract
Division                   data from IRS systems not readily available to auditors.
Submission Processing      The data processing arm of the IRS that processes paper and electronic
Function                   submissions, corrects errors, and forwards data to the Computing
                           Centers for analysis and posting to taxpayer accounts.

Tax Period                 The tax period corresponding to the filing of a Form 8288 is
                           one month. For example, the filing of a Form 8288 received by the
                           IRS in January 2013 would be reflected in the taxpayer’s record as
                           201301, a Form 8288 received in February 2013 would be recorded as
                           201302, and so on. There are 12 tax periods in one calendar year.

Tax Year                   The 12-month period for which tax is calculated. For most individual
                           taxpayers, the tax year is synonymous with the calendar year.

Taxpayer Identification    A nine-digit number assigned to taxpayers for identification purposes.
Number                     Depending upon the nature of the taxpayer, the TIN is an Employer
                           Identification Number, a Social Security Number, or an ITIN.
Transaction Code           A three-digit code used to identify a processed transaction and to
                           maintain a history of actions posted to a taxpayer’s account on the
                           Master File.




                                                                                            Page 37
                 Additional Actions Are Needed to Help Ensure Taxpayer
              Compliance With the Foreign Investment in Real Property Tax Act




Term                           Definition
U.S. Department of             The mission of the U.S. Department of Agriculture is to provide
Agriculture                    leadership on food, agriculture, natural resources, rural development,
                               nutrition, and related issues based on sound public policy, the best
                               available science, and efficient management. Foreign persons with
                               10 percent of more ownership in U.S. agricultural property are
                               required to file the Form ASCS-153, Agriculture Foreign Investment
                               Disclosure Act Report, with local Agricultural Stabilization and
                               Conservation Service offices.
U.S. Department of             The mission of the U.S. Department of Commerce is to promote job
Commerce                       creation, economic growth, sustainable development, and improved
                               standards of living for all Americans by working in partnership with
                               businesses, universities, communities, and our Nation’s workers.
                               According to the department, it impacts the daily lives of the American
                               people in many ways, with a wide range of responsibilities in the areas
                               of trade, economic development, technology, entrepreneurship and
                               business development, environmental stewardship, and statistical
                               research and analysis.
U.S. Real Property Interest    An interest in real property located in the United States or U.S. Virgin
                               Islands.
U.S. Securities and Exchange   The mission of the U.S. Securities and Exchange Commission is to
Commission                     protect investors, maintain fair, orderly, and efficient markets, and
                               facilitate capital formation. It requires public companies to disclose
                               meaningful financial and other information to the public.




                                                                                               Page 38
      Additional Actions Are Needed to Help Ensure Taxpayer
   Compliance With the Foreign Investment in Real Property Tax Act



                                                     Appendix IX

Management’s Response to the Draft Report




                                                            Page 39
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 40
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 41
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 42
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 43
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 44
   Additional Actions Are Needed to Help Ensure Taxpayer
Compliance With the Foreign Investment in Real Property Tax Act




                                                         Page 45
